OFFICE OF THE BAR COUNSEL
BOARD OF BAR OVERSEERS OF THE SUPREME JUDICIAL COURT
99 High Street
Boston, Massachusetts 02110
(617) 728-8750
Fax: (617) 482-2992
www.massbbo.org
RODNEY S. DOWELL
BAR COUNSEL

240

6

• 5044
July 9, 2020

Supreme Court of the United States
Attn: Scott S. Harris, Clerk
1 First Street, NE
Washington, DC 20543
RE: In the Matter of Ilya Liviz (Petition for Certiorari)
Dear Clerk Harris:
As the above-referenced matter clearly does not warrant review by the Supreme Court,
this office does not intend to respond to the petition for certiorari unless requested to do so
by the Court.
Very truly yours,
Robert M. Daniszewski
Robert M. Daniszewski
Assistant Bar Counsel
RMD/atb
cc: Ilya Liviz

RECEIVED
JUL 2 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S,

